                                 TESTIMONY OF

                             MICHAEL CARROLL,

                   NOMINEE FOR INSPECTOR GENERAL,

          U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT


                                   BEFORE THE

             SENATE COMMITTEE ON FOREIGN RELATIONS


                              NOVEMBER 6, 2013

       Chairman, Ranking Member, and Members of the Committee, thank you
for the opportunity to appear before you today. It is an honor to come before you
as the nominee to serve as Inspector General for the U.S. Agency for International
Development (USAID).

        If you will permit me, I would like to take a moment to introduce my
family. My wife, Nancy, and our son, Matthew, are here with me today. I would
like to thank them for their support during my time in public service. No measure
of verbal acknowledgement can fully reflect my gratitude for the inspiration and
encouragement that they have provided over the years.

       I would also like to thank the President for his consideration for this
important office and Administrator Shah for his support. If confirmed, I look
forward to a productive working relationship with the Administrator and his
management team in ensuring proper oversight of foreign assistance programs and
operations.

       I have dedicated nearly my entire professional life to public service, so it is
a distinct honor to be considered for this leadership position in the federal
government. My experience in leadership positions in five federal agencies has
shown me the integral role that effective public administration can play in the
proper functioning of an agency. I have devoted much of my career to creating an
                                       - 2 -


effective management environment in which programs and operations thrive, and I
would value the opportunity to do so as Inspector General.

        The Inspector General community plays a critical role in reinforcing the
accountability and integrity of government programs and strengthening the
efficiency and effectiveness of operations. These are responsibilities that I value
deeply as a citizen and a taxpayer. I have worked assiduously in my past and
present capacities within the USAID Office of Inspector General (OIG) to ensure
that the organization contributes materially in these areas.

       I would especially look forward to the opportunity to continue to serve my
country as Inspector General for USAID. I spent many of my formative years
overseas—in Turkey, Guam, the Philippines, and Cuba—and in the process
acquired a deeply-rooted appreciation for our great nation’s place in the world. In
my professional life, I have served in leadership positions in foreign affairs
agencies for more than two decades and I have developed a keen understanding of
the role that international engagement and foreign assistance play in supporting
our national interests and security.

       USAID does important work to advance U.S. foreign policy interests and to
help people around the world make a better life for themselves. To effectively
perform this function, USAID programs and operations must be implemented in a
sound manner that yields the results that the American people and Congress
expect. The Inspector General has a vital role to play in helping the Agency fulfill
its mandate in this regard.

       USAID faces many formidable challenges in carrying out its mission. To
promote human progress and expand stable, free societies, USAID works in
countries where rule of law is tenuous and corruption is endemic. In promoting
the sustainability of hard won development gains, USAID looks to work more
closely with and through local institutions that are still developing key business
systems and controls. In this context, the OIG plays a pivotal role in shaping the
success or failure of Agency programs and is essential to address the ever present
risks of waste, fraud, and abuse.

        The importance of this oversight function is multiplied in institutional
settings characterized by a high degree of dynamism and volatility. Foreign
affairs agencies as a group face significant changes in their operating environment
as conditions abroad shift. And, in recent years, USAID has embarked on reforms
designed to improve internal operations and transform its approach to delivering
development assistance. Changes of this kind increase risks. In the face of these
developments, OIG is working to ensure that the Agency has systems in place to
                                        - 3 -


properly manage these changes while directly responding to associated risks of
waste, fraud, and abuse.

       In addition to providing oversight of USAID, the USAID Inspector General
has responsibility for oversight of the programs and operations of the Millennium
Challenge Corporation, the U.S. African Development Foundation, and the Inter-
American Foundation, and also has limited oversight authorities relating to the
Overseas Private Investment Corporation. If confirmed, I would look forward to
working with the leadership of these organizations to combat waste, fraud, and
abuse, and to strengthen their respective abilities to execute their missions.

       I understand that the responsibilities of the position to which I have been
nominated are great and I know that it will present many challenges.
Nevertheless, I believe that the knowledge and experience that I have gained over
the course of my life have prepared me for these challenges.

       I have a profound commitment to accountability and high performance and
I demand the highest level of ethical conduct from myself and others around me. I
take the public trust very seriously and have always been firmly dedicated to the
prudent use of taxpayer dollars. Over the course of my career, I have developed a
reputation as a dynamic leader and a thoughtful steward of government resources.
In an oversight capacity, I have always worked to ensure that my organization’s
products are free from bias and reflect fairly and honestly on the subjects of our
work.

        For the last 7 years, I have served alternately as Acting Inspector General
and Deputy Inspector General at USAID. This experience has prepared me in a
unique way for the USAID Inspector General position and given me special
insight into the inner workings of the agencies for which we provide oversight.
My experience serving in these capacities has also helped me build on the
management and leadership skills I developed in previous assignments. In the
past, I have served in senior positions at the U.S. Department of Commerce, the
U.S. Nuclear Waste Technical Review Board, and the U.S. Information Agency. I
also served as the Assistant Inspector General for Management at USAID OIG.

        In my time with USAID OIG, I have had the great benefit of working with
the many high-caliber professionals that make up the organization. OIG’s
workforce consists of skilled Foreign Service and Civil Service auditors,
investigators, and analysts that provide hands-on oversight of development and
stabilization activities around the globe. This work frequently takes them into
challenging settings, such as conflict and post-disaster environments, where
security and safety are all too often in short supply. Their dedication to get the job
done in the face of these and other obstacles presented by the complex
                                       - 4 -


environments in which they operate is truly commendable. I consider myself
fortunate to serve with a group of such diligent and motivated public servants.

        If confirmed, my priorities as Inspector General would include maintaining
OIG’s robust, forward-deployed audit and investigative capabilities while
increasing the office’s ability to deliver products that inform the deliberative
process surrounding foreign assistance. I would continue to promote effective
coordination with oversight partners and redouble efforts to strengthen the
accountability environment in which foreign assistance programs operate.
Because local conditions frequently shape the success or failure of development
activities, I would work to increase engagement with local law enforcement and
prosecutors, host-country audit entities, and the public through country-specific
hotlines for reporting fraud, waste, and abuse. I would also continue to uphold the
highest standards for integrity, fairness, and impartiality in the OIG’s work and
zealously guard its independence, while promoting communication with Congress
and agency leaders on important oversight issues.

        The effective execution of USAID OIG’s important mandate calls for
dedicated leadership. The American people deserve an Inspector General at
USAID who is fully committed to ensuring that taxpayer dollars are spent in an
effective manner and that risks of waste, fraud, and abuse are met squarely and
with unwavering resolve. I fully embrace this commitment and believe that my
experience has prepared me for the challenges of this position. If I am confirmed,
I will look forward to having the opportunity to exercise the skills and judgment I
have developed over the years in performing the important functions of the
USAID Inspector General.

      Thank you very much for the opportunity to address the Committee today
and for your consideration of my nomination to this important position. I would
be happy to answer any questions you may have.
